August 7, 2019

Via Electronic Filing and Regular Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 19-123, Sharonell Fulton, et al. v. City of Philadelphia, et al.

Dear Mr. Harris:
I write to enter my appearance as counsel of record for the respondents City of
Philadelphia, the Department of Human Services for the City of Philadelphia, and the
Philadelphia Commission on Human Relations, and to seek an extension of the time to file a
response to the petition for certiorari. The petition was docketed on July 25, 2019, and the
response is due on August 26, 2019. For the following reasons, we request a 60-day extension
to and including October 25, 2019. Counsel for the intervenor-respondents Philadelphia
Family Pride and Support Center for Child Advocates have authorized me to state that they
join this request. Counsel for the petitioners consent to an extension of 30 but not 60 days.
Because we were not counsel for the respondents in the court below, my colleagues and
I will require additional time to familiarize ourselves with the petition and prepare an
adequate response, in collaboration with the City of Philadelphia’s Law Department.
Furthermore, we have an unusual number of deadlines and obligations that will prevent us
from devoting adequate time to the response absent the requested extension. These include a
brief due on August 12 in this Court; a brief due on August 15 in the Fourth Circuit; an
opening brief due August 19 in the Ninth Circuit; a letter brief due on August 22 in the
California Supreme Court; a petition for rehearing due on August 26 in the Fourth Circuit; a
brief due on September 3 in the Wisconsin Supreme Court; a reply brief due on September 13
in the Ninth Circuit; oral argument on September 25 in the D.C. Circuit; a brief due on
October 4 in this Court; a brief due on October 16 in the Montana Supreme Court; oral
argument on October 21 in the Wisconsin Supreme Court, and a merits brief due on October
21 in this Court. I also have teaching obligations as a Lecturer at Harvard Law School in
September and October. Co-counsel at the Law Department likewise have numerous
competing litigation deadlines during this same period, as well as several preplanned
vacations. A 60-day extension will allow us to balance these other commitments with our
obligations in this case. Furthermore, this is the first extension requested, and it is customary
for this Court to grant at least one extension under the circumstances.
Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741
guptawessler.com

F 202 888 7792

Thank you for your attention to this matter.
Sincerely,

cc: Mark L. Rienzi

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741
guptawessler.com

F 202 888 7792

Deepak Gupta

